No. 20-297

In the Supreme Court of the United States
TRANSUNION LLC,
Petitioner,
v.
SERGIO L. RAMIREZ,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus
Curiae Public Justice contains 4,820 words, excluding the parts of the document
that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on March 9, 2021

Leah M. Nicholls
Public Justice, P.C.
1620 L Street NW, Suite 630
Washington, D.C. 20036

